NO. __________

IN THE
SUPREME COURT OF THE UNITED STATES

CHIRON SHARROL FRANCIS,
Petitioner
vs.
THE STATE OF TEXAS,
Respondent

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Chiron Sharrol Francis, by and through his attorney, a
member of the Bar of this Court, asks leave to file the attached petition for a
writ of certiorari without prepayment of costs and to proceed in forma
pauperis.
Petitioner has previously been determined to be indigent and granted
leave to proceed in forma pauperis in the following courts:
268TH Judicial District Court, Fort Bend County, Texas
In addition, Petitioner was allowed to appeal his conviction without the
payment of costs.
1

Petitioner’s counsel is and has been representing him as appointed
counsel on the appeal of his conviction. Petitioner’s counsel has not been paid
any fees, or had any expenses reimbursed by Petitioner. Petitioner has not
promised counsel any compensation for his work hereon. Any compensation
that counsel ultimately receives, if at all, will be upon conclusion of the
Petition For Writ of Certiorari in the 268TH Judicial District Court and he will
be paid according to the County’s fee schedule for indigent work.
Petitioner’s declaration in support of this motion is attached hereto.
Respectfully submitted,
/s/ Leonard Thomas Bradt
_____________________________
Leonard Thomas Bradt
S.B.O.T. #02841600
14090 Southwest Freeway, Suite 300
Sugar Land, Texas 77478
(713) 201-0700
Fax: (281) 201-1202
ltbradt@flash.net
Attorney for Petitioner,
Chiron Sharrol Francis

2

